<html>
<title> - H.R. 2012, A BILL TO IMPROVE THE INTEGRITY AND SAFETY OF INTERSTATE HORSERACING, AND FOR OTHER PURPOSES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]


 
               H.R. 2012, A BILL TO IMPROVE THE INTEGRITY 
                AND SAFETY OF INTERSTATE HORSERACING, 
                AND FOR OTHER PURPOSES

=======================================================================

                                HEARING

                               BEFORE THE

           SUBCOMMITTEE ON COMMERCE, MANUFACTURING, AND TRADE

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 21, 2013

                               __________

                           Serial No. 113-102




[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        

                               ______________
                               
                               
                               
                    U.S. GOVERNMENT PUBLISHING OFFICE
93-259                  WASHINGTON : 2015                    
                              
______________________________________________________________________________________                        
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1a7d6a755a796f696e727f766a3479757734">[email&#160;protected]</a>  
                     
                        
                        
                        
                        


                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

RALPH M. HALL, Texas                 HENRY A. WAXMAN, California
JOE BARTON, Texas                      Ranking Member
  Chairman Emeritus                  JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky               FRANK PALLONE, Jr., New Jersey
JOHN SHIMKUS, Illinois               BOBBY L. RUSH, Illinois
JOSEPH R. PITTS, Pennsylvania        ANNA G. ESHOO, California
GREG WALDEN, Oregon                  ELIOT L. ENGEL, New York
LEE TERRY, Nebraska                  GENE GREEN, Texas
MIKE ROGERS, Michigan                DIANA DeGETTE, Colorado
TIM MURPHY, Pennsylvania             LOIS CAPPS, California
MICHAEL C. BURGESS, Texas            MICHAEL F. DOYLE, Pennsylvania
MARSHA BLACKBURN, Tennessee          JANICE D. SCHAKOWSKY, Illinois
  Vice Chairman                      JIM MATHESON, Utah
PHIL GINGREY, Georgia                G.K. BUTTERFIELD, North Carolina
STEVE SCALISE, Louisiana             JOHN BARROW, Georgia
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   DONNA M. CHRISTENSEN, Virgin 
GREGG HARPER, Mississippi            Islands
LEONARD LANCE, New Jersey            KATHY CASTOR, Florida
BILL CASSIDY, Louisiana              JOHN P. SARBANES, Maryland
BRETT GUTHRIE, Kentucky              JERRY McNERNEY, California
PETE OLSON, Texas                    BRUCE L. BRALEY, Iowa
DAVID B. McKINLEY, West Virginia     PETER WELCH, Vermont
CORY GARDNER, Colorado               BEN RAY LUJAN, New Mexico
MIKE POMPEO, Kansas                  PAUL TONKO, New York
ADAM KINZINGER, Illinois             JOHN A. YARMUTH, Kentucky
H. MORGAN GRIFFITH, Virginia
GUS M. BILIRAKIS, Florida
BILL JOHNSON, Ohio
BILLY LONG, Missouri
RENEE L. ELLMERS, North Carolina

                                 7_____

           Subcommittee on Commerce, Manufacturing, and Trade

                          LEE TERRY, Nebraska
                                 Chairman
LEONARD LANCE, New Jersey            JANICE D. SCHAKOWSKY, Illinois
  Vice Chairman                        Ranking Member
MARSHA BLACKBURN, Tennessee          JOHN P. SARBANES, Maryland
GREGG HARPER, Mississippi            JERRY McNERNEY, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
PETE OLSON, Texas                    JOHN A. YARMUTH, Kentucky
DAVID B. McKINLEY, West Virginia     JOHN D. DINGELL, Michigan
MIKE POMPEO, Kansas                  BOBBY L. RUSH, Illinois
ADAM KINZINGER, Illinois             JIM MATHESON, Utah
GUS M. BILIRAKIS, Florida            JOHN BARROW, Georgia
BILL JOHNSON, Ohio                   DONNA M. CHRISTENSEN, Virgin 
BILLY LONG, Missouri                     Islands
JOE BARTON, Texas                    HENRY A. WAXMAN, California (ex 
FRED UPTON, Michigan (ex officio)        officio)

                                  (ii)
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Lee Terry, a Representative in Congress from the State of 
  Nebraska, opening statement....................................     1
    Prepared statement...........................................     2
Hon. Leonard Lance, a Representative in Congress from the State 
  of New Jersey, opening statement...............................    11
Hon. John P. Sarbanes, a Representative in Congress from the 
  State of Maryland, opening statement...........................    11
Hon. Joseph R. Pitts, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................    12
Hon. Gus M. Bilirakis, a Representative in Congress from the 
  State of Florida, opening statement............................    12
Hon. Donna M. Christensen, a Representative in Congress from the 
  Virgin Islands, opening statement..............................    13
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, prepared statement..............................    15
Hon. Janice D. Schakowsky, a Representative in Congress from the 
  State of Illinois, prepared statement..........................   126

                               Witnesses

Jesse M. Overton, Chairman, SkyLearn, Inc., and Former Chairman, 
  Minnesota Racing Commission....................................    17
    Prepared statement...........................................    19
    Answers to submitted questions...............................   128
Philip Hanrahan, Chief Executive Officer, National Horsemen's 
  Benevolent and Protective Association..........................    25
    Prepared statement...........................................    27
    Additional material for the record \1\
    Answers to submitted questions...............................   134
Lawrence R. Soma, Professor Emeritus of Anesthesia and Clinical 
  Pharmacology, University of Pennsylvania School of Veterinary 
  Medicine.......................................................    34
    Prepared statement...........................................    36
    Additional material for the record \2\
    Answers to submitted questions...............................   149
Travis T. Tygart, Chief Executive Officer, U.S. Anti-Doping 
  Agency.........................................................    47
    Prepared statement...........................................    49
    Answers to submitted questions...............................   158
Sheila Lyons, Founder and Director, American College of 
  Veterinary Sports Medicine and Rehabilitation..................    56
    Prepared statement...........................................    58
    Additional material for the record \3\
    Answers to submitted questions...............................   170

----------
\1\ Additional material from Mr. Hanrahan is available at http://
cradmin.clerk.house.gov/repository/IF/IF17/20131121/101517/HHRG-113-
IF17-Wstate-HanrahanP-20131121-U2.pdf and http://docs.house.gov/
meetings/IF/IF17/20131121/101517/HHRG-113-IF17-Wstate-HanrahanP-
20131121-U4.pdf.
\2\ Additional material from Mr. Soma is available at http://
docs.house.gov/meetings/IF/IF17/20131121/101517/HHRG-113-IF17-Wstate-
SomaL-20131121-SD001.pdf and http://docs.house.gov/meetings/IF/IF17/
20131121/101517/HHRG-113-IF17-Wstate-SomaL-20131121-SD002.pdf.
\3\ Additional material from Ms. Lyons is available at http://
docs.house.gov/meetings/IF/IF17/20131121/101517/HHRG-113-IF17-Wstate-
LyonsS-20131121-SD005.pdf.
Wayne Pacelle, President and Chief Executive Officer, Humane 
  Society of the United States...................................    97
    Prepared statement...........................................    99
    Answers to submitted questions...............................   211

                           Submitted Material

H.R. 2012, the Horseracing Integrity and Safety Act of 2013, 
  submitted by Mr. Terry.........................................     4
Letter, undated, from Water Hay Oats Alliance to Mr. Terry and 
  Ms. Schakowsky, submitted by Mr. Pitts.........................   112
Statement of Nancy Perry, Senior Vice President, Government 
  Relations, American Society for the Prevention of Cruelty to 
  Animals, dated November 20, 2013, submitted by Mr. Pitts.......   113
Article of November 14, 2013, ``Texas Compounder Draws Industry 
  Scrutiny,'' by Frank Angst, BloodHorse.com, submitted by Mr. 
  Terry..........................................................   117
Letter of November 20, 2013, from Alexandra M. Waldrop, President 
  and Chief Executive Officer, National Thoroughbred Racing 
  Association, to Mr. Terry and Ms. Schakowsky, submitted by Mr. 
  Terry..........................................................   122


  H.R. 2012, A BILL TO IMPROVE THE INTEGRITY AND SAFETY OF INTERSTATE 
                  HORSERACING, AND FOR OTHER PURPOSES

                              ----------                              


                      THURSDAY, NOVEMBER 21, 2013

                  House of Representatives,
Subcommittee on Commerce, Manufacturing, and Trade,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:04 a.m., in 
room 2322 of the Rayburn House Office Building, Hon. Lee Terry 
(chairman of the subcommittee) presiding.
    Members present: Representatives Terry, Lance, Blackburn, 
Harper, Guthrie, Bilirakis, Johnson, Sarbanes, McNerney, 
Yarmuth, Barrow, Christensen, and Waxman (ex officio).
    Also present: Representative Pitts.
    Staff present: Kirby Howard, Legislative Clerk; Nick 
Magallanes, Policy Coordinator, Commerce, Manufacturing, and 
Trade; Gib Mullan, Chief Counsel, Commerce, Manufacturing, and 
Trade; Andrew Powaleny, Deputy Press Secretary; Heidi Stirrup, 
Policy Coordinator, Health; Shannon Taylor, Counsel, Commerce, 
Manufacturing, and Trade; Michelle Ash, Democratic Chief 
Counsel, Commerce, Manufacturing, and Trade; and Will Wallace, 
Democratic Professional Staff Member.
    Mr. Terry. We are going to start our hearing. Some of you 
have testified before or been around our testimony, so you have 
a pretty good handle on how it works. I will have an opening 
statement, and Mr. Sarbanes will have. We will have statements 
that should go about 10 minutes per side. And then we are going 
to go right into your testimony. And we will go for Mr. Overton 
to my right. So let us start the clock.

   OPENING STATEMENT OF HON. LEE TERRY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEBRASKA

    Good morning, and thank you all for joining us on our 
second in a series of horse related hearings. And as I 
mentioned last week, I have very fond memories of working at 
the racetrack in Omaha, Nebraska. And even when I was finished 
working there, I just couldn't get away from it. There is just 
such a romance with those thoroughbreds. I just loved sitting 
there, standing on the rail of the stretch. And as they come 
around that corner and you can just feel the ground shaking 
from their power, and just majestic animals. So I have a real 
love for our racehorse industry and those horses.
    And so that is why we are here today, is to talk about the 
future of thoroughbred horseracing and how the horses have been 
treated, and some of the allegations that have been made 
through what I would say community-based organizations, but 
also legitimate news organizations. So the perception is that 
the doping or drug use for the horses has become pervasive. In 
fact, in a pool done by a jockey club that has been quoted many 
times by my colleagues, and this is the major handicappers and 
bettors, will actually take into account the witch barns, 
trainers, have a reputation for using masking drugs and 
eliminate them from their handicapping, and maybe even some 
tracks that have a reputation versus other tracks for how tough 
they are in enforcing the no-drugs policy.
    Now, these types of unsavory practices bring two major 
concerns to the forefront. Number one is the safety of the 
jockeys. And there has been one study that showed that 24 
horses a week have some incident on the track while they are 
racing. While the animal itself we should care for, the most 
important is the human being on top of that. It is a dangerous 
sport. We know when a horse is racing, and it should not be due 
to injury that both the animal and the human being are exposed 
to those dangers. And I am deeply concerned about the 
implications to the fairness of the horseracing and the 
pervasive, or perceived pervasive, use of PEDs may have.
    In 1978 when Congress passed the Interstate Horseracing 
Act, one of the issues Congress sought to address was a 
responsible atmosphere for off-track betting so that people 
could place wagers on horses with a degree of certainty that 
this was a regulated affair. To put it bluntly, if PEDs are 
being used, that is cheating. And you are cheating the bettors 
to the point where the big handicappers won't bet on races 
where they think horses may have been doped. So it is not 
acceptable, and I compliment Joe Pitts and Jan Schakowsky for 
this legislation.
    [The prepared statement of Mr. Terry follows:]

                  Prepared statement of Hon. Lee Terry

    Good morning, and thank you for joining us for what will be 
the second hearing on horse-related issues in the past two 
weeks.
    As I mentioned in my remarks last week, I have a great 
affinity for horses. Growing up, and then as a student, I 
worked part-time at the local Aksarben Race track. And for 
reference, Aksarben is Nebraska spelled backwards. But it was 
there I got to see firsthand how the world of horseracing 
works--both on the front and back end of the track.
    Unfortunately, I was not surprised when I read last year an 
article exposing the drugging of racehorses on race day.
    It has become so pervasive that a recent poll by the Jockey 
Club found that four in five handicappers and/or bettors take 
into account race-day drugs and other performance-enhancing 
drugs when betting on races.
    These types of unsavory practices bring two major concerns 
to the forefront: the safety of the horse and jockey; and the 
issue of fairness.
    We know that when a horse is racing and should not be due 
to injury, both the animal and the human being that is riding 
it are exposed to a higher degree of risk. I believe this is 
unacceptable.
    I am also deeply concerned about the implications to 
fairness that the pervasive use of PEDs may have.
    In 1978, when Congress passed the Interstate Horseracing 
Act, one of the issues Congress sought to address was a 
responsible atmosphere for off-track betting, so that people 
could place wagers on horseraces with a degree of certainty 
that this was a regulated affair. Today, you can go to a 
racetrack and place a bet on a horse that you happen to know 
may have an advantage over another horse. Which then puts you 
at an advantage over another bettor. This is not acceptable.
    The Pitts-Schakowsy legislation would designate the U.S. 
Anti-Doping Agency as the anti-doping organization with the 
responsibility for testing and ensuring the integrity and 
safety of races where off-track betting is permitted.
    The legislation would also create a stricter regulatory 
framework for certain substances and impose an outright ban on 
others.
    I would like to thank our witnesses for attending today's 
hearing and thank my friend Chairman Joe Pitts for joining us 
today to discuss his legislation.

    [H.R. 2012 follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Terry. And at this time, I have a minute 16 there to 
yield to somebody. Mr. Lance?

 OPENING STATEMENT OF HON. LEONARD LANCE, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Lance. Thank you very much, Mr. Chairman, and good 
morning to our distinguished panel and everyone in the 
audience. The thoroughbred industry has had a significant 
cultural and economic impact here in the United States. The 
industry supports over one million permanent jobs and has an 
estimated economic impact of over $100 billion. Beyond that, 
the thoroughbred industry is a part of American culture. 
Millions attend and watch events such as the Kentucky Derby and 
the Preakness Stakes each year, and thousands attend local 
races in their home communities. And New Jersey races at the 
Meadowlands and at Monmouth Park generate significant local 
interests and economic impact.
    However, in recent years, the thoroughbred industry has 
been plagued by the usage of performance-enhancing drugs. This 
practice not only de-legitimizes the sport but also endangers 
both the horses that participate in these contests and the 
jockeys who are at risk of serious paralysis or death should a 
horse suffer an injury.
    Doping in the thoroughbred industry is a concern for every 
industry stakeholder from the small time better who has had to 
take into account who is doping, what handicapping choices, to 
the owners who want to preserve the credibility of their 
industry.
    I look forward to examining this legislation and hearing 
testimony from our diverse and distinguished panel. Thank you, 
Mr. Chairman.
    Mr. Terry. Thank you, Mr. Vice Chairman. And now the acting 
ranking member, Mr. Sarbanes, you are recognized for your 5 
minutes.

OPENING STATEMENT OF HON. JOHN P. SARBANES, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Sarbanes. Thank you, Mr. Chairman. I won't take the 
full 5 minutes. I appreciate you convening this hearing so we 
can examine this important topic and the proposed legislation 
to address this issue of the use of performance-enhancing drugs 
in the horseracing industry.
    As has been mentioned by the other members so far, this is 
a very important industry to the country, generating almost 
150,000 jobs. It is a $10.6 billion industry nationally. 
Horseracing is important in my State. My district is right 
across the street--the boundary of it--right across the street 
from the Pimlico race track where the Preakness is held. I 
mention that only because everybody who goes to the race parks 
in the neighborhood of my constituents.
    Mr. Terry. Do you get to charge 5 bucks to park in front of 
your house?
    Mr. Sarbanes. They charge--yes, they charge more than that, 
actually, for people to park on their front lawns.
    In addition, the Third District in Maryland is home to one 
of the largest memberships of the humane society in the 
country, so I am very focused as well on the welfare of the 
horses. So this is an important topic of discussion. You do 
these things--to examine these things, you make sure that a 
sport like this is clean because it is in the long-term 
interest of the industry in maintaining the vibrancy of the 
industry in the eyes of the public and those who participate. 
So it is an important hearing.
    I know we are trying to move quickly to the witnesses. I am 
prepared to yield time to any other members here if they would 
take it. Otherwise, I would be prepared to yield back.
    Mr. Terry. Thank you. Mr. Pitts, you are recognized for 2 
\1/2\ minutes.

OPENING STATEMENT OF HON. JOSEPH R. PITTS, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Pitts. Thank you, Mr. Chairman, for the recognition, 
for the privilege to join the important hearing today on H.R. 
2012. I would like to augment my statement today by showing a 
short video clip, which sets the tone for why the Congress must 
act to protect jockeys, horses, and the public from the scourge 
of drugs in horseracing. Try to get sound.
    [Video.]
    Mr. Pitts. You can see on the TV screen a display of one 
horse, Coronado Heights, a 4-year-old thoroughbred that 
received a diagnosis of early degenerative joint disease but 
was raced anyway, broke down, was euthanized on the track. And 
I have--at your seat, you can see what was administered to him 
1 week before he broke down, 17 syringes. So despite promises 
and assurances--statements--groups have been unable to come 
together to develop uniform rules. The fact remains that there 
is no single entity which has the authority to impose uniform 
rules on racing commissions, tracks, trainers and others. So I 
urge members to consider H.R. 2012, a sound national framework 
to protect horses, riders and the public. We look forward to 
hearing the witnesses. Thank you, Mr. Chairman.
    Mr. Terry. Gentleman from Florida, do you wish to make a 
statement?

OPENING STATEMENT OF HON. GUS M. BILIRAKIS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it. 
Thank you very much for holding this very important hearing.
    First, I want to echo those views that no one wants to see 
animals mistreated or harmed in any way. No horse should be 
intentionally neglected, mistreated or subjected to unnecessary 
trauma. Additionally, those that participate in interstate 
parimutuel activities should be assured that they are 
participating on a fair and transparent level that protects the 
integrity of the sport.
    I do, however, wish to closely examine the most appropriate 
manners in which to ensure this. As a general guiding 
principle, all manners of compliance assistance and incentives 
with States and industries should be exhausted before further 
empowering agencies. This committee should applaud the growing 
efforts to adopt uniform national reforms on the State level. 
Tampa Bay Downs, one of the country's oldest racetracks and the 
only thoroughbred racetrack on the west coast of Florida, is 
located in my congressional district, and it also supports this 
approach. And it is one of the more than 50 racetracks across 
the country to endorse these reforms.
    Additionally, the Florida Division of Parimutuel Wagering 
is hosting a workshop tomorrow to receive public input on its 
rules regarding drugs and veterinarian procedures and 
enforcement.
    Thank you again, Mr. Terry, and I look forward to hearing 
from the very--
    Mr. Terry. Thank you.
    Mr. Bilirakis. Thank you.
    Mr. Terry. We have 1 minute. Does the vice chair of the 
full committee wish an opening statement?
    Mrs. Blackburn. I would just simply welcome all of our 
witnesses. We are delighted that you are here. And yield back 
my time.
    Mr. Terry. Thank you. And that concludes all of the opening 
statements. Donna, do you have----
    Mrs. Christensen. If I could----
    Mr. Terry. Yes.
    Mrs. Christensen. This will take----
    Mr. Terry. You are----

       OPENING STATEMENT OF HON. DONNA M. CHRISTENSEN, A 
       REPRESENTATIVE IN CONGRESS FROM THE VIRGIN ISLANDS

    Mrs. Christensen. Thank you. Thank you, Mr. Chairman, and 
Ranking Member. I grew up in horseracing. My father had race 
horses. It is still one of my favorite sports. But I grew up in 
a time when these kinds of issues with drugging horses didn't 
happen. And I am just glad that we are having this hearing 
today. And I thank the witnesses and welcome them.
    Mr. Terry. Thank you very much. Now, that concludes our 
opening statements. A fun fact before we introduce our guests, 
our witnesses, that chariot racing was the first Olympic sport 
in 1680 B.C. Horseracing has been around a long time, and we 
want to keep it that way.
    The witnesses? Henry, do you want to make a statement?
    OK. I want to introduce all of our witnesses. As I 
mentioned, we will start with Mr. Overton, who is Chairman of 
SkyLearn, LLC, and former chairman of the Minnesota Racing 
Commission; Phil Hanrahan, Executive Officer, National 
Horsemen's Benevolent and Protective Association; Dr. Lawrence 
Soma, VMD, Professor Emeritus of Anesthesia and Clinical 
Pharmacology at University of Pennsylvania School of Veterinary 
Medicine. Good thing it wasn't Penn State. We play them 
Saturday. I would have had to grill you much more. Travis 
Tygart, CEO, U.S. Anti-Doping Agency; Dr. Sheila Lyons, DVM, 
founder and director of American College of Veterinary Sports 
Medicine and Rehabilitation; and Wayne Pacelle, Chief Executive 
Officer and President Humane Society of the United States. 
Thank you all for taking your time to share your wisdom with us 
today.
    Mr. Overton, you will have 5 minutes.
    Mr. Waxman. Mr. Terry?
    Mr. Terry. Yes?
    Mr. Waxman. Before he starts, I just want to welcome all 
the witnesses. I do have a statement I want to put in the 
record in support of the effort to stop the inhumane practices 
relating----
    Mr. Terry. Without objection.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Terry. So each of you will have 5 minutes. There is a 
little sign up here you can glance up to. The 1-minute mark 
will be a yellow slash, and that means start wrapping it up. 
Five minutes-ish, I will start tapping the gavel to let you 
know to wrap it up.
    Mr. Overton, you are now recognized for 5 minutes.

 STATEMENTS OF JESSE M. OVERTON, CHAIRMAN, SKYLEARN, INC, AND 
FORMER CHAIRMAN, MINNESOTA RACING COMMISSION; PHILIP HANRAHAN, 
  CHIEF EXECUTIVE OFFICER, NATIONAL HORSEMEN'S BENEVOLENT AND 
PROTECTIVE ASSOCIATION; LAWRENCE R. SOMA, PROFESSOR EMERITUS OF 
      ANESTHESIA AND CLINICAL PHARMACOLOGY, UNIVERSITY OF 
 PENNSYLVANIA SCHOOL OF VETERINARY MEDICINE; TRAVIS T. TYGART, 
   CHIEF EXECUTIVE OFFICER, U.S. ANTI--DOPING AGENCY; SHEILA 
  LYONS, FOUNDER AND DIRECTOR, AMERICAN COLLEGE OF VETERINARY 
    SPORTS MEDICINE AND REHABILITATION; AND WAYNE PACELLE, 
 PRESIDENT AND CHIEF EXECUTIVE OFFICER, HUMANE SOCIETY OF THE 
                         UNITED STATES

                 STATEMENT OF JESSE M. OVERTON

    Mr. Overton. Thank you very much, Mr. Chairman, Ranking 
Member Mr. Sarbanes, and members of the subcommittee. Thank you 
for this opportunity to share my thoughts and experiences 
regarding the painful truth about drugging of race horses, the 
current challenges with medication rules and the need for H.R. 
2012 to reform drug use in U.S. racing.
    I was appointed by Governor Tim Pawlenty to a 5 \1/2\-year 
term on the Minnesota Racing Commission, with the last 2 \1/2\ 
years of my service during the tenure of Governor Mark Dayton. 
While I no longer serve in an official capacity, my experiences 
serving on the racing commission makes me a strong supporter of 
H.R. 2012.
    Minnesota, like every racing jurisdiction in North America, 
is faced with multiple challenges, not least of which is the 
establishment and enforcement of uniform regulations in racing. 
Specifically, it was my role as a racing commissioner to work 
toward a reduction in the number of medication violations 
through better testing and serious enforcement protocols. 
During my tenure, the commission established stricter 
medication rules and employed a modern drug testing lab. 
Trainers, in honest, frequently race their horses in multiple 
States. So keeping up with various drug requirements and 
withdrawal times is a daunting task. And with winning as an 
overarching goal, some trainers race in States with more 
lenient medication rules. In fact, Minnesota's stricter 
medication and enforcement rules resulted in some horsemen 
electing not to return to Minnesota when we improved our 
medication testing.
    It is my strong belief that if integrity is not the 
fundamental un-depending of horseracing as both a sport and a 
gaming operation, it is destined to failure. Horseracing 
involves the Government, gaming operators, racetrack owners and 
horsemen. Racehorse owners and veterinarians are supporting 
players. In my experience, some of the industry's groups 
challenge the integrity of the sport. They will say there are 
few or no problems either with the use of drugs or with the 
enforcement against those who do not comply with the 
regulation. This is simply not true. There is an inherent 
problem with the model consisting of 38 separate regulatory 
entities and many industry interest groups, all believing that 
they are in charge. The fact is there is little coordination 
among racing commissions, industry groups at the State and 
interstate level. And with so many cooks in the kitchen, there 
is confusion, conflict and chaos in medication regulations.
    This is a perfect environment for those who can't keep up 
with the rules or those who chose to improperly or illegally 
medicate horses to take advantage of the disorganization. As a 
racing commissioner, I will stand by the length some trainers 
will go to win races. As you will hear from other witnesses, 
there is no drug or compound that has not been tried in horses, 
from EPO, antibiotical steroids, to frog juice and cobra venom. 
And I promise, there are chemists right now working up new, 
illegal, undetectable substances to give a trainer who wants a 
performance advantage, especially if he or she does not have 
the fastest horse.
    Unless drug testing is conducted uniformly and in state-of-
the-art laboratories, unscrupulous horsemen will continue to 
cheat the system for horses and the fans. I have attended many 
meetings of racing consortia and regulatory to find a common 
regulatory paradigm within which all racing jurisdictions must 
comply. But as long as there are 38 separate jurisdictions, 
this goal is impossible to obtain despite decades of sincere 
people's best efforts.
    While multiple States have adopted racing compacts to align 
medication requirements, the fact is the enforcement of these 
compacts will vary from State to State as no single entity has 
authority to enforce in more than one State. The approach is 
varied. The outcome is the same. Unlike other professional 
sports like football, baseball, there is a central authority. 
No consistency in lab capabilities, no uniform penalties, no 
dedicated funding to increase lab testing, nor conduct research 
to catch the next magic potion illegally administered to 
horses. H.R. 2012 and a new authority will provide, through the 
U.S. Anti-Doping Agency, USADA, would establish a single drug 
testing body by virtue of a strong and consistent enforcement 
regulation. Through the enactment of H.R. 2012, all racing 
commissions would work in cooperation with USADA to strengthen 
and clean the competition policies and provide uniform 
medication testing.
    Thank you very much, Mr. Chairman, and members of the 
subcommittee.
    [The prepared statement of Mr. Overton follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Terry. Thank you, Mr. Overton. Now, Mr. Hanrahan, you 
are recognized for 5 minutes.

                  STATEMENT OF PHILIP HANRAHAN

    Mr. Hanrahan. Thank you, Mr. Chairman. I am the CEO of the 
National Horsemen's Benevolent and Protective Association. The 
NHBPA is the largest organization in the United States 
representing owners and trainers in thoroughbred horseracing. 
We have approximately 29,000 members in the United States and 
Canada.
    Let me start by stating unequivocally the NHBPA's position 
on medication. Owners and trainers who cheat by administering 
drugs that have no legitimate use in horses in attempt to 
influence the outcome of race should, after due process, be 
kicked out of horseracing. The use of dermorphin is doping 
plain and simple, so too is blood doping, gene doping and other 
narcotics.
    However, let me quickly add, data compiled by State racing 
authorities shows conclusively that doping of thoroughbred 
horses in the United States is extremely rare. In the United 
States, two horses are tested every race. During the 4-year 
period from 2009 through 2012, there were more than 360,000 
post-race tests of blood and urine. Only 142 tests--I say 
again, 142 tests--were positive for doping substances. More 
than 99.9 percent of all tests showed no doping substances were 
present. The NHBPA, however, draws a clear distinction between 
illegal doping and lawful therapeutic medication administered 
by licensed veterinarians.
    The HBPA supports the continued use of Lasix and other 
therapeutic medications because they are necessary for the 
health and welfare of horses and reduce the risk of injury to 
jockeys.
    Now, turning to H.R. 2012, the NHBPA opposes its enactment 
because it attempts to address a problem that does not exist, 
and purports to do so by employing USADA which has neither the 
experience in horseracing nor the resources to regulate 
medication in the horseracing industry. Medication rules and 
machinery for their enforcement already exists in every racing 
State.
    News reports claim rampant use of illegal drugs that State 
regulators are ignoring. A look at the State regulatory data 
shows such claims are not true. Data for the most recent 4-year 
period shows more than 99.9 percent of the hundreds of 
thousands of post-race tests were negative for doping. 
Likewise, more than 99.2 percent of tests were negative for 
therapeutic medication remaining in a horse on race day.
    Despite this objective evidence demonstrating there is no 
widespread misuse in medication in thoroughbred racing, some 
industry voices have called for a ban on all medication. Those 
who do so labor under the erroneous belief that race day 
medication is routinely permitted and that it causes injuries 
to horses. That is not true. The only race day medication 
allowed in the U.S., with minor exception, is Lasix. 
Unfortunately, Lasix, which H.R. 2012 bans, has become the 
poster child for those arguing in favor of a ban on all 
medication and has obscured scientific and medical facts about 
Lasix, including the following.
    Running hard causes nearly all horses to bleed in their 
lungs and can cause instant death on the racetrack. One of my 
co-panelists, Dr. Larry Soma, published research documenting 
the racetrack deaths of horses due to bleeding in the lungs. 
Lasix prevents and lessens bleeding, and is the only medication 
that does so. Lasix is not performance enhancing. It does not 
make a horse run faster than its God-given natural talent.
    A landmark 2009 study in South Africa of 167 thoroughbred 
horses and racetrack conditions conclusively proved the 
effectiveness of Lasix in preventing and lessening the severity 
of bleeding. It is wrong to claim without any empirical 
evidence that fatalities are caused by permissive drug use. 
Last year's New York report on racehorse health and safety 
noted breakdowns at aqueduct occurred for a multitude of 
reasons having little to do with medication.
    While the NHBPA opposes H.R. 2012, we do recognize the 
utility of uniform medication rules. Medication use, post-race 
testing thresholds and penalties often vary from State to 
State. For that reason, the NHBPA is continuing to work with 
the Association of Racing Commissioners International on 
drafting uniform model rules. Nine States in the mid-Atlantic 
have taken the lead in approved uniform medication rules. 
Eleven others are currently considering adopting those rules. 
We have high regard for USADA's efforts in policing illegal 
drug use in human sports competition. But the organization has 
no experience in equine veterinary science or the horse 
industry.
    In short, H.R. 2012 is not needed. The job is already being 
done. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Hanrahan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    [Additional material from Mr. Hanrahan is available at 
http://cradmin.clerk.house.gov/repository/IF/IF17/20131121/
101517/HHRG-113-IF17-Wstate-HanrahanP-20131121-U2.pdf and 
http://docs.house.gov/meetings/IF/IF17/20131121/101517/HHRG-
113-IF17-Wstate-HanrahanP-20131121-U4.pdf.]
    Mr. Terry. Thank you. Now, Dr. Soma, you are recognized for 
5 minutes.

                 STATEMENT OF LAWRENCE R. SOMA

    Mr. Soma. Good morning. I would like to review the progress 
that has been made in improving equine drug testing and some 
changes in the curtailment of use of certain drugs.
    Prior to 208, only 5 of the 18 U.S. racing laboratories 
were accredited through international standards, which are 
referred to as ISO-17025. As of June 13, 10 of the 16 
laboratories are accredited. The laboratories that are 
accredited to these standards meet technical and quality 
management requirements. The standards require that laboratory 
to implement a quality assurance system aimed at demonstrating 
the ability to consistently produce valid test results starting 
from proper handling of incoming samples to reproducibility and 
accuracy of analytical results.
    This is not a one-shot deal. Laboratories have to be 
reaccredited, and the onsite assessment of a laboratory is 
mandatory every 2 years. So an inspector comes in--goes through 
the laboratory and assesses their quality assurance 
capabilities.
    The committee appointed by the Racing Medication and 
Testing Consortium was charged with developing a second 
accreditation program for the equine industry. This committee, 
which I was a member, developed a laboratory accreditation 
requirements and operating standards. The requirements for this 
level of accreditation are extensive and are guided by the 
requirements outlined by the U.S. Doping Agency laboratories. 
The committee basically started with this handbook and 
developed guidelines which can be used in the industry. The 
laboratory must participate in an external quality assurance 
program which requires analysis of proficiency samples. The 
laboratory must successfully identify and confirm and quantify 
the drug in blood and urine. The laboratory knows that the 
samples are coming but do not know what drug is in the blood or 
urine sample. The above requirements are important aspects of 
the program that determines if the laboratory has the 
capability, personnel and instrumentation required to detect 
substance of concern at the concentrations that are mandated by 
the industry.
    The stated goal of this program is to ensure that all 
laboratories are operating at the same standard. The first type 
of accreditation indicates how well the laboratory is 
functioning, their data management. The second state tells you 
how the performance of that is, can you find certain drugs, and 
can they be confirmed in a reasonable timeframe?
    National guidelines have also been published for the 
withdrawal time for 24 commonly used therapeutic drugs. This 
allows for the treatment of horses during training, if they are 
properly used. For example, progress has been made on the drug 
control front. Anabolic steroids have been banned from use in 
North America, and the injections of drugs into the equine 
joint has been regulated. As a result of these regulations, 
injection of drugs into the joint really cannot be done before 
7 days--the horse has to be medicated for 7 days before they 
allow the horse to run.
    There is still a number of drugs which are problematic. One 
of the problems is certainly that Lasix is still allowed in the 
United States and Canada. Number two, there are many drugs out 
there which are difficult to find, and there is very, very 
little research in trying to attempt to find these drugs. 
Fortunately, the State of Pennsylvania does provide research 
funds through our laboratory to look at peptides, EPO type of 
drugs, and drugs which are very, very difficult to find on the 
current establishment lab. Even if you have a very good 
laboratory that can find hundreds of drugs in one screening, 
there are still drugs out there which we have not developed a 
method for. And these are protein based drugs. These are small 
peptides, like the morphine is a small peptides. These are 
drugs that are difficult to find. And I am sure there are many 
more coming along which the laboratories really need resources 
to improve their research capabilities.
    But many laboratories have improved. Some laboratories have 
left because they could not meet these requirements. So as far 
as testing is concerned, I think there has been a great change 
over the last 5 years in improving this aspect of racing. Rules 
and regulation throughout the States is still a problem. Thank 
you.
    [The prepared statement of Mr. Soma follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    [Additional material from Mr. Soma is available at http://
docs.house.gov/meetings/IF/IF17/20131121/101517/HHRG-113-IF17-
Wstate-SomaL-20131121-SD001.pdf and http://docs.house.gov/
meetings/IF/IF17/20131121/101517/HHRG-113-IF17-Wstate-SomaL-
20131121-SD002.pdf.]
    Mr. Terry. Thank you. And, Mr. Tygart, you are recognized. 
And as I understand, you just flew back from South Africa. So 
if you are talking a little slower because of your jetlag, we 
will understand.

                 STATEMENT OF TRAVIS T. TYGART

    Mr. Tygart. Thank you, Mr. Chairman, and members of the 
committee. Good morning. My name is Travis Tygart, and I am the 
CEO at the United States Anti-Doping Agency. It is an honor for 
me to be here representing the USADA Board and the tens of 
millions of clean athletes that we serve. It is also an honor 
for USADA, a 501(c)(3) not-for-profit corporation based in 
Colorado, to play a role as an independent organization to 
assist the sport of horseracing to ensure level playing field, 
enhance the consumer confidence in the gaming industry and to 
sustain a culture of health for athletes, and hopefully allow 
for the overall economic growth for the entire horse industry 
as we have seen in the Olympic movement.
    True sport has been on the idea of honesty, respect, 
fairness and an equal opportunity for success under the rule of 
law, the very same principles that build the foundation of 
every free and democratic society. We firmly believe, as do our 
athletes, that the greatest injustice in sport is when one 
competitor robs another of their hard work, dedication and 
victory because they gained an unfair advantage contrary to the 
rules.
    Accordingly, we welcome and appreciate this committee's 
focus on the harms that are caused by performance-enhancing 
drug use in sport. The issue of drugs in sport and corruption 
in sport strikes at the very heart of what role sport will play 
in America's future.
    Bottom line, if we turn a blind eye to fraudulent conduct, 
contrary to the rules of competition in track and field, 
cycling, football, even horseracing, essentially saying as long 
as we win and don't get caught, it is OK, then we send a very 
powerful message that it is acceptable, justifiable, even noble 
to win by any means necessary, including dangerous performance-
enhancing drugs, fraud or whatever, as long as you win and you 
don't get caught.
    And make no mistake, the win at all costs culture is alive 
and well and will flourish in every sport, including 
horseracing, if we do not take decisive action to stop the 
thieves from running wild, and instead truly give hope to those 
who compete to win under the rules.
    USADA's perspective on the current anti-doping climate in 
horseracing comes from living the history of the fight against 
doping that has occurred within the international Olympic 
movement over the past 13 years. In the late 1990s, there was a 
myriad of different anti-doping rules and regulations across 
the globe in each jurisdiction in sport. There was no uniform 
or harmonized policy for what was considered a violation, what 
was tested for, how collections and chain of custodies 
procedures applied, what laboratory standards applied. There 
were varying sanction links. Ultimately, this system of self-
regulation by the various States and sports created an 
unattainable position for sport, for athletes. And it seriously 
disrupted the economic viability of the Olympic Games. Suffice 
it to say, the Olympic rings were badly tarnished. And that was 
bad for business.
    In 1999, athletes, governments, sporting world said enough 
is enough and came together to solve the problem. This game 
changing moment ultimately led to the creation of the World 
Anti-Doping Agency, or WADA. And after an open, transparent 
consultation process, eventually led to the passage of the WADA 
Code and the international standards. Today, the code and the 
standards are the uniform policies that apply equally to all 
athletes, coaches and trainers across the globe. They are the 
substantive anti-doping rules that we all agreed to and we are 
bound by. Today, there are approximately 520 sport 
organizations and 172 governments from around the world that 
have accepted and agreed to abide by the WADA Code. There is no 
good reason why this same effort cannot be done for the 
horseracing industry in the United States. And the current 
legislation allows for it.
    The first step to curing the problem was passing the 
uniform policy. The second equally important measure was to 
ensure the uniform and full implementation of the policy. USADA 
was open in late 2000 as the organization that handles this 
responsibility. It was extremely courageous for the United 
States Olympic Committee, the 45 or so national federations 
like USA Basketball, USA Swimming, to fully externalize their 
efforts to USADA. But they took the stand because it was clear, 
the sports themselves could not simultaneously promote and 
police themselves.
    In addition to true independence and transparency, the WADA 
code provides a guide to what this legislation would allow to 
be addressed effectively in the horseracing industry. Effective 
testing, including standardized selection, collection, chain of 
custody and transport rules and practices, a full list of 
substances and methods that would capture new designer drugs as 
you just heard from Dr. Soma. Implementation of best legal 
practices and policies, which must include adequate sanctions 
to deter doping, and due process protections for those accused 
of violations. The implementation of best scientific standards 
for laboratory uniformity and practices, including a robust 
accreditation and proficiency testing program, as well as 
scientific research for the detection of new substances. 
Investigative units and partnerships with Government, 
particularly law enforcement, to ensure those who illegally 
manufacture, traffic and distribute these dangerous drugs who 
might be outside of sports jurisdiction are also held 
accountable.
    In conclusion, I would like to thank this committee for its 
time, its interest on this important, ethical and public health 
issue, and for inviting me here today to share USADA's 
experiences. We look forward to assisting you in any way 
possible going forward as you consider this legislation and 
hopefully restore the faith in this wonderful sport. Thank you.
    [The prepared statement of Mr. Tygart follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Terry. Thank you. And thank you for your extraordinary 
efforts to be here today. Dr. Lyons, you are recognized for 5 
minutes.

                   STATEMENT OF SHEILA LYONS

    Ms. Lyons. Thank you, Chairman Terry, Ranking Member 
Sarbanes and members of the subcommittee for allowing me to 
testify today. My name is Sheila Lyons, and I am a veterinarian 
who specializes in equine sports medicine and physical medicine 
and rehabilitation. My private veterinarian consulting practice 
is both national and international in scope, which provides me 
with an overview of the horseracing industry and the veterinary 
profession that includes many distinct jurisdictions. I am the 
founder of the American College of Veterinary Sports Medicine 
and Rehabilitation, a member of the International Society of 
Physical Medicine and Rehabilitation, and a member of the 
International Federation of Sports Medicine. I provide 
education to veterinary students, veterinarians, physical 
therapists, farriers and horsemen across the country and 
internationally. My patients have included some of the world's 
finest thoroughbred racehorses. But I have regularly provided 
veterinary services to horses at every level of the sport for 
nearly 30 years.
    First, do no harm. This well-known creed describes the most 
important and fundamental principle of medical ethics. It is 
also the principle that is being violated every day by 
racetrack veterinarians across this country.
    First, get this horse to the races has become the 
substitute creed for too many racetrack veterinarians. The 
pervasive and unethical use of injury masking and performance-
enhancing drugs in horseracing in the United States has created 
a national health and safety crisis in the industry, and is 
destroying the reputation of a once vibrant sport. This pattern 
of drug abuse is deemed legal and some might say encouraged 
under our current horseracing regulatory system. The 
Horseracing Integrity and Safety Act of 2013 holds the power to 
reverse this injustice through its mandate of drug free racing, 
its designation of a national and fully independent expert 
regulatory authority, its requirement that appropriate 
penalties be enforced without bias, and this legislation's 
clear and unambiguous message to the horseracing industry, 
veterinary community and the public that cheaters will not 
prosper and drugs may only be administered under the strict 
ethical and professional guidelines known as the veterinarian/
client patient relationship. The veterinarian's role will once 
again be based upon the principles of veterinary medical 
ethics.
    The veterinarian/client patient relationship seems a simple 
term but holds powerful meaning. This legislation's repeated 
incorporation of this term in this bill is key to enacting 
essential reform in the standard of veterinary care that all 
racehorses receive, without regard to their monetary value or 
level of racing.
    Not unlike the standards governing human medicine, the 
standards of veterinary practice, which all licenses are 
conditioned upon, include a fundamental basis for all services 
called the veterinarian/client patient relationship. This 
requires that a veterinarian have adequate knowledge of the 
patient before administering or prescribing drugs for the 
animal. Such adequate knowledge requires the veterinarian to 
take a full patient history, conduct an examination, make a 
diagnosis, develop a therapeutic plan, prescribe medications 
strictly for the purpose of restoring or protecting health, and 
reexamine that patient to determine the success or failure of 
the treatments. The veterinarian must also keep comprehensive 
records documenting these professional services. In other 
words, this legislation requires that there be a therapeutic 
purpose behind the administration of any drug and prohibits the 
use of drugs for purposes of promoting competition or profit.
    Racehorse is not a diagnosis. And a veterinarian must meet 
a higher standard of care and practice before administering 
medication.
    This legislation provides the essential key to returning 
the absolute authority over the regulation of the practice of 
veterinary medicine squarely back with each State veterinary 
board by banning all drugs during racing while reinforcing the 
vet board's mandate of the veterinarian/client patient 
relationship. In doing so, the current illusion that racing 
commissioners have that racing commissioners have any say 
whatsoever regarding which drugs a veterinarian may administer 
to a patient will be removed, along with any confusion about 
which regulatory authority is in charge.
    The State veterinary boards will reemerge as the effective 
and sole authorities and regulators over the practice of 
veterinary medicine in each State. This legislation not only 
provides a dream solution to the ethical and safety problems 
plaguing the United States horseracing industry, but its 
implementation is absolutely essential if the industry is to 
survive and regain its position as an international leader in 
the sport.
    [The prepared statement of Ms. Lyons follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    [Additional material from Ms. Lyons is available at http://
docs.house.gov/meetings/IF/IF17/20131121/101517/HHRG-113-IF17-
Wstate-LyonsS-20131121-SD005.pdf.]
    Mr. Terry. Thank you. Mr. Pacelle, you are now recognized 
for your 5 minutes.

                   STATEMENT OF WAYNE PACELLE

    Mr. Pacelle. Thank you, Chairman Terry. Thank you very much 
for addressing this issue. I am glad to be on this esteemed 
panel. I am representing the Humane Society of the United 
States, and we are an enthusiastic supporter of this 
legislation.
    You know, I think what we are talking about here is 
appreciation for this sport, appreciation for entertainment, 
but balancing it with the interest and the needs of the 
athletes involved; in this case, both animal and human.
    Today's New York Times--if I can just direct you to, for a 
moment, a story about boxing. Reconciling a sport's violent 
appeal as a fighter lies in a coma. So one fighter is in a 
coma, and we have got a front-page New York Time's story about 
it, very appropriately so. Attempts to limit the serious injury 
and death of fighters should be an important concern of our 
society.
    Last week, Nicholas Mevoli, participating in deep-
unassisted diving, died. He was trying to break the world 
record. If you remember, he went to 236 feet under the water 
without any breathing assistance. And he died. Now, there is a 
robust debate about what some of the rules should be about 
that.
    Football, we have had an incredible discussion in society 
over the last 3 or 4 years about traumatic brain injuries as a 
consequence of professional football injuries and contacts. As 
the son of a football coach, I pay very close attention to that 
issue. These football players aren't dying on the field, they 
are dying some years later as a consequence of this 
degenerative brain disorder.
    We heard from the official with the anti-doping association 
about the scandals in cycling, Olympic track and field and 
baseball. These issues have been headlines in our Nation.
    In horseracing, we have two problems. We have catastrophic 
injuries for these horses on the track, and we have widespread 
doping of the equine athletes. I want to say very clearly, the 
Humane Society of the United States does not oppose 
horseracing. We never have. We have been paying attention to 
the industry for decades. All of us are here because I think we 
want to see a balance between success for the industry and 
proper treatment of the animals and concern for the human 
participants, the jockeys, in this enterprise.
    But what we have seen over decades is an absence of 
adequate self-regulation, and we are presented with the 
question, should we do more? Should the Congress do more on 
this issue? And I want to say that if we are outraged about--or 
deeply saddened by the deaths of these human athletes in other 
sports, we should also be outraged and saddened by the deaths 
of 24 horses every week on American racetracks. Every week. Not 
once in a while. Every week. We have had drug scandal after 
drug scandal. You saw Dr. Rick Arthur on the video that was 
played during Congressman Pitts' statement. He said ``It is 
hard to justify how many horses we go through.'' In humans, you 
never see someone snap their legs off during running in the 
Olympics. But you see it in horseracing.
    The failure for this industry to adopt comprehensive, 
consistent national standards is a serious problem that has 
been in the works, decade after decade. This Congress has an 
opportunity now with the massing of evidence to do something 
constructive that is not going to be against the industry's 
interest. It is going to be in the interest of the industry. 
Any sport that is taking shortcuts, that is allowing routine 
doping, and that sees this level of injury and death in the 
animal athletes has a major public relations problem. The sport 
is in decline in the United States. Other horseracing 
jurisdictions around the world are in their ascendancy. And 
they are running horses on hay, oats and water. And when an 
animal is injured or ill, you address it with a palliative and 
allow the animal to rest and to heal, not to get on the track 
and to be running at 40 miles an hour, or 45 miles an hour, 
often on unforgiving surfaces, often before they are old enough 
to sustain these injuries and this beating of the--of their 
hooves on the track.
    I have got a lot of incidents in my testimony, but I want 
to just wrap up, Chairman Terry, by saying just a couple of 
quick things. This Congress has addressed issues like animal 
fighting at the Federal level. You have done so in spite of the 
fact that the States have prohibitions on dog fighting and 
cockfighting because there are circumstances and cases where we 
need Federal intervention, the nature of the animal fighting 
enterprise is national or international. You also just 
conducted a hearing on the soring of Tennessee walking horses. 
A Federal law was adopted 40 years ago because of the 
intentional injuring of horses by physical and chemical means 
to enhance performance of these horses. This Congress has 
jurisdiction on this issue. This is a multibillion-dollar 
industry. Horses move nationally. Hundreds of millions of 
dollars wagered on these athletes. The name of this bill, 
Congressman Pitts' bill, is the Horseracing Integrity and 
Safety Act. That is what needs to be restored. Thank you very 
much.
    [The prepared statement of Mr. Pacelle follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Terry. Thank you. And that--now, we will proceed to the 
question and answers where we get to ask questions, and you get 
to answer them. We also have an issue with any minute, the 
buzzer is going to go off for votes. So we will see how far we 
can get with our questions. So, Mr. Overton, my question is for 
you. Follow-up on what Mr. Pacelle just said. There are 38 
separate regulatory entities. I am a Tenth Amendment guy. I 
like to have States have their powers and their rights. So if 
we can have 50 States with regulatory powers, what is the 
failure of 38--is there a failure of these 38 racing 
commissions, and should there be a Federal law?
    Mr. Overton. And----
    Mr. Terry. Yes, the microphone?
    Mr. Overton. Mr. Chairman and members of the subcommittee, 
definitely there is a problem in all 38, if not all 50, 
jurisdictions. It is not intent. It is by design. There is no 
enforceability between States of having regulations that are 
uniform. We do need uniform. And I would just like to point out 
that doing it with USADA, we are not talking about a Government 
takeover of their independent group. And they have demonstrated 
that they would have the enforceability. And one of the issues 
with that enforceability today, we have seen serious violations 
of trainers throughout the years. The way they would handle 
it----
    Mr. Terry. When was the last time there was a trainer 
suspended or kicked out of the business because of a violation?
    Mr. Overton. That is----
    Mr. Terry. Do you know?
    Mr. Overton. There have been quite a few. There are some 
that have stays right now in the court system.
    Mr. Terry. OK. The other question is, do the racing 
jurisdictions share information so that they have information 
on one trainer or barn that is shared with another as they go 
to the next racetrack?
    Mr. Overton. Only if there is an investigation.
    Mr. Terry. OK.
    Mr. Overton. We do share with RCI any rulings that come 
out.
    Mr. Terry. Thank you.
    Mr. Overton. Thank you.
    Mr. Terry. Mr. Tygart, since you are here, let us ask 
questions. You mentioned in the world, anti-doping code has 
been revised a number of times to keep up with the drugs and 
the appropriate testing for them. So how has the code been 
modified over time, and are there new drugs and tricks of the 
trade that need to be addressed, both in your jurisdiction and 
as you would think for the horseracing industry? Because one of 
the issues here--and I have an article here from--buried 
somewhere in my paperwork here--about a compounding entity that 
specializes in changing the drug just enough that it can't be 
detected. So how do you keep up with those things?
    Mr. Tygart. Thanks for your question, Mr. Chairman. The 
code itself, which is the umbrella uniform policy has been 
changed now three times. The third version was just approved 
down in South Africa where I came from you mentioned earlier. 
The list of prohibited substance and methods is published every 
year. There is a democratic process, an expert group that 
provides information on what substances meet the criteria, 
whether it is performance enhancing or not, whether it is 
against--you know, violates the health and safety of athletes, 
and whether it violates the spirit of sport and any of those--

    Mr. Terry. And is that wholly applicable to the horseracing 
industry?
    Mr. Tygart. It very well could be. I mean, I think part of 
the process that this legislation would allow for would be that 
consultation process to come up with exactly what that criteria 
would be, and then have a democratic process every year that 
would then publish in advance. So our list is published every 
October, going into effect that following year. Listen, I think 
cheaters who want to win and there is a big prize at the end to 
win, will go to great lengths to ensure that they are not 
caught by the testing system, even the best testing systems 
that may be in place. But what you have got here are, you know, 
labs where 2 of the 16 don't meet even the industry's--I am 
sorry, 2 of the 16 are the only ones that meet the industry's 
standards for uniformity. So the----
    Mr. Terry. Two out of sixteen.
    Mr. Tygart. Two out of sixteen, 12.5 percent. So you have 
got 87 percent that don't meet the RMTC's own ISO accreditation 
and laboratory operating procedures.
    Mr. Terry. Well, let me stop you there, because I only have 
30 some seconds. Mr. Hanrahan, you mentioned that there is only 
a small percentage that fail. But if it is true that they are 
not even testing for the right things, is that a reliable 
number for us?
    Mr. Hanrahan. Eighty-one----
    Mr. Terry. Percent of failures?
    Mr. Hanrahan. Mr. Chairman, they are testing for known 
substances. And I would point out on the issue for example of 
dermorphin, which was an unknown substance, that--there was 
some human intelligence. There was some suspicions, and samples 
were sent to the lab and the lab developed the test to identify 
dermorphin. So the labs do work ahead to try and identify 
substances.
    Mr. Terry. All right. Thank you. Mr. McNerney, as Acting 
Ranking Member, you are recognized for 5 minutes.
    Mr. McNerney. I would like to ask the Chair to recognize 
Mr. Yarmuth from the great State of Kentucky, home of the 
Derby.
    Mr. Terry. Absolutely. With the unanimous consent, so 
ordered.
    Mr. Yarmuth. Thank you, Mr. Chairman, and thanks to my 
colleague for yielding. As Mr. McNerney said, I represent the 
Kentucky Derby and Churchill Downs. And certainly thoroughbred 
breeding and horseracing is a signature industry of Kentucky. 
So I also represent owners, trainers, jockeys, grooms and of 
course a lot of track workers and of course a lot of horses as 
well. They don't get to vote, usually. I applaud all of you for 
your concern about protecting the health and safety of the 
horses and the riders, and also the integrity of the sport. I 
appreciate that very much, and I share all of your concerns.
    I do have a couple of specific concerns about this 
particular legislation. And, Mr. Tygart, I want to start with 
you. It has already been established that your background, it 
is not in horseracing. Your organization is not in horseracing. 
So I am a little bit concerned about the accountability that 
USADA might have if empowered under this legislation. To whom 
is USADA accountable now?
    Mr. Tygart. Well, we currently have Federal appropriation. 
So we can, you know, obviously be called up and testifying 
about any issues. Our legal process goes through a panel of 
independent arbitrators. So, ultimately, any decisions on a 
case, whether someone committed a doping violation or not, 
athlete or other person, trainer, et cetera, would ultimately 
go to independent arbitrators. Obviously, that would be a 
written decision publicly available. And, of course, you know, 
we are not immune from media scrutiny at any return.
    Mr. Yarmuth. Right. And obviously, I am not questioning 
your capabilities or integrity. I am just trying to establish 
this. Because a lot of times in many cases in the commercial 
world, we have empowered independent agencies to set rules and 
regulations, and they are totally unaccountable. And that is a 
problem. So under this legislation as you understand it, if you 
were given this authority, if there were questions about 
regulations you handed down, what would be the process through 
which--whether it was owners, vets, tracks, whoever would 
appeal those, or somebody else to review the regulation?
    Mr. Tygart. Yes. What we would envision is not unlike the 
process I described in my testimony with the World Anti-Doping 
Agency where you have got some input at the governance level of 
people that are free of conflict of interest similar to the way 
our board is set up today. I think we would be open to having 
whether it is a wholly un-sub or additional board members added 
that have the type of experience that you heard in some of the 
testimony on that. They would obviously have to be free of any 
conflicts to ensure the independence. That is how we currently 
are operating. I think whether the legislation adds a piece of 
oversight or whether the agreements that the legislation calls 
for between us and the major stakeholders of the industry. And 
those agreements certainly though could be spelled out. Some 
accountabilities to ensure proper financial management, proper 
governance, those types of things. Again, not on a case-by-case 
basis. You don't make policy on, let us say, a single high-
profile case--during the middle of that case. You would want 
the process that has been agreed to prior to that particular 
case coming up to resolve itself. And then if there is any 
effort to revise--amend like we did with the WADA code, then 
you have that process built in.
    Mr. Yarmuth. All right. Thank you. One of the provisions of 
the bill is that there is a ban on any medication on race day. 
And I know Mr. Hanrahan, you have made the case that there may 
be a justification, particularly with regard to Lasix to 
administer on race day. Could you kind of in the minute and 14 
seconds we have left talk about that and why that may be 
problematic to put in the legislation? It may be 
counterproductive?
    Mr. Hanrahan. As I alluded to, Lasix is in fact the only 
race day medication that is allowed, with a couple of minor 
exceptions for adjuncts. As the RCI's model rule exists now, 
and as I am sure you are aware, Kentucky is one of the States 
that follows that model rule that allows Lasix, but is only 
administered by State veterinarian or regular veterinarians. It 
is not issued or administered by a private veterinarian. The 
dosage is limited. The time that it is given is limited. So it 
has been a very effective model rule. And that is just 
symptomatic of how the model rule process works in terms of 
developing an industry consensus, whether it is on Lasix, 
whether it is banning steroids, et cetera.
    Mr. Yarmuth. And in 10 seconds, has that been successful in 
terms of facilitating--not necessarily enhancing performance on 
the horses, but protecting the horse on race day?
    Mr. Hanrahan. I would say yes, sir. It has been very 
perfective in Kentucky and those States that have it. There was 
a little roughness getting it in place. But it has been very 
effective. And Lasix is a very effective drug in preventing 
bleeding in horses, and that protects the horse and in turn 
protects the jockeys.
    Mr. Yarmuth. Great. Thank you, sir.
    Mr. Terry. Thank you. And now, there is about 5 minutes 
left with how many people not voting yet?
    Voice. Three hundred.
    Mr. Terry. Three hundred and seventy-five. So we have 
probably got another 5 minutes. So, gentlelady from Tennessee, 
the vice chairman, is recognized.
    Mrs. Blackburn. Thank you, Mr. Chairman. And I will do my 
best to not take all of my time and yield back so that others 
may get in----
    Mr. Terry. Why don't you yield it to Joe?
    Mrs. Blackburn. And to the queue. OK. If we are not 
finished, I will yield it to Joe. I think we can all agree, we 
are all interested in the welfare of the animals. We are 
interested in the integrity of the sports, whether it is 
horseracing or walking horses or the steeple chase that we 
enjoy in Tennessee, or when I was a kid and in 4H Club, the 
quarter horses in the barrel racing and all of that that my 
brother did. It is an important part of life for those of us 
who have grown up on farms or who live on farms or have that in 
our district. And so, Mr. Pacelle, I want to come to you for 
just a moment and ask you a little bit about your formal 
relationships, in relation primarily to the hearing we had last 
week. And I would just like to know, do you all have a formal 
relationship with one of our witnesses last week, Mr. Irby?
    Mr. Pacelle. A formal relationship? No, we do not.
    Mrs. Blackburn. Have you ever provided compensation to him 
to be in here in DC, or provided expenses or travel for him to 
come into DC to provide testimony or to lobby us on the bill?
    Mr. Pacelle. No, not to my knowledge.
    Mrs. Blackburn. Not to your knowledge. Could you confirm 
that and put it in writing and submit it to us?
    Mr. Pacelle. Sure. I would be happy to call your office and 
tell you. Sure.
    Mrs. Blackburn. OK. I would like it in writing. And same 
with Ms. Benefield, to know what her formal relationship is 
with you all.
    Mr. Pacelle. Sure.
    Mrs. Blackburn. That would be wonderful. I appreciate that. 
And, Mr. Pitts, I yield the balance of my time to you.
    Mr. Pitts. Thank you.
    Mr. Terry. Joe, can I interrupt real quick?
    Mr. Pitts. Yes, sir.
    Mr. Terry. We will also give you a couple minutes. And 
everyone else has said they are going to submit their questions 
for the record. So at the time Joe finishes his question, we 
will dismiss.
    Mr. Pitts. Thank you, Mr. Chairman. For Mr. Hanrahan and 
Dr. Lyons, in my opening statement, I referred to a horse named 
Coronado Heights who happened to have been trained by the 
Nation's leading trainer by money, Todd Pletcher, and received 
17 injections 1 week before he broke down. Mr. Hanrahan and Dr. 
Lyons, how is that putting the horse first? Please explain what 
could possibly be the benefit. Is this what is necessary to get 
a horse to the races, and how could this be justified 
especially at the top of the sport, Mr. Hanrahan?
    Mr. Hanrahan. Yes, sir. I am not a veterinarian, but I 
would suggest to you that veterinarians look at those horses. 
Depending on the medical condition of that horse, whether the 
horse had a cold, whether the horse had some lameness issue, et 
cetera, would determine how that horse was treated. I would 
also like to point out I believe that horse was 1 of the horses 
included in the aqueduct report for the Aqueduct Commission 
that was convened in light of a number of breakdowns. And with 
your permission, I would like to quote something out of that 
report. And this is from the executive summary of that report.
    Mr. Pitts. Dr. Lyons--
    Mr. Hanrahan. And it says on page 4, pre-race medication 
administered to the fatally injured horses was similar to that 
administered to the uninjured horses that raced. And one other 
thing is that on----
    Mr. Pitts. I only have 2 minutes left. You can submit that 
for the record? Dr. Lyons, would you comment? How is this 
putting the horse first? Explain the benefit, et cetera.
    Ms. Lyons. Thank you, Congressman Pitts, for the question. 
It is not putting the horse first. It is putting the interest 
of getting that horse over to the races over and above the 
horse's safety, its well-being. And I looked at that horse's 
records. And I am a veterinarian. And I can tell you that there 
was nothing therapeutic about the approach or the drugs that 
were used in that horse. In my opinion, that horse broke down 
as a direct result of the injury-masking drugs that were 
stacked for weeks in advance before that horse raced and lost 
its life on the track. And I also am aware--and I am quite sure 
it was with this case that the owner of that horse had 
instructed that she did not want this horse to be medicated so 
that the injuries would be masked. And yet, the veterinarian 
did not abide by her directive. So this is how this system has 
broken down so that veterinarians see themselves as having the 
role of accommodating racing rather than the welfare of the 
patient. So that did not take care of that horse.
    Mr. Pitts. Thank you. Mr. Hanrahan, the Blood Horse 
Magazine announced your being hired as the national HBPA CEO on 
11/29/11. At the time, the article indicated that you were then 
a handicapper and occasional tournament player. Now, recent 
survey of horseracing bettors performed by Penn, Shad, and 
Berland indicated that 86 percent of the biggest bettors avoid 
certain tracks in States because of concerns over medication 
integrity, and 79 percent of horseplayers factor in illegal 
drug use when handicapping races at certain track. And these 
poll numbers are insightful, because they basically say bettors 
at all levels, especially at most every vested--big bettors 
believe that trainers are cheating and using drugs and adjust 
their betting accordingly. When you were actively wagering, did 
you take into account any of these considerations? If not, why 
not?
    Mr. Hanrahan. No, I did not. The----
    Mr. Pitts. Why----
    Mr. Hanrahan. The primary thing in handicapping a race is 
how competitive the race will be. You look at the size of the 
field, the conditions of the race. And I would point out, as I 
am sure many of you know, for horses running on Lasix, that is 
published in the racing programs. Everyone knows that.
    Mr. Pitts. Well, do you think this presents a perception 
problem? What if Warren Buffet thought Wall Street was rigged, 
quit playing? Isn't this actually driving your sport out of 
business? Five years ago, nearly $15 billion was bet on races 
in North America. Today, it is down to 10 billion. Sales and 
purses have slumped as well. Additionally, fewer owners, 
especially foreign, are buying the racing horses in America. My 
time has expired. I have several questions for the record, Mr. 
Chairman, that I will submit. And I have two statements for the 
record, from Water Hay Oats Alliance and ASPCA, that I would 
like the unanimous consent to submit----
    Mr. Terry. Without objection, so ordered.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Pitts. Thank you, Mr. Chairman.
    Mr. Terry. Thank you. And now, I will recognize Mr. 
McNerney for a short statement.
    Mr. McNerney. I just want to thank the witnesses for 
coming. I have heartfelt statements. I support H.R. 2012, and I 
will submit questions for the record.
    Mr. Terry. So you have heard Mr. McNerney talk about 
questions for the record. Each member of this committee and Joe 
Pitts has the ability or right to send you questions. You have 
an obligation, because you agreed to testify, to answer those 
questions in a timely manner, which I will define as 2 weeks. 
If you can get in your answers to any questions submitted to 
you within 2 weeks, we would greatly appreciate it. And at this 
time, I want to offer unanimous consent to put into the record 
an article entitled ``Texas Compounder Draws Industry 
Scrutiny,'' and a November 20, 2013, NTRA letter. Hearing no 
objections, so ordered.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Terry. I want to thank you all for your great 
testimony. Sorry we were rushed. We thought were going to have 
about another full half-hour to ask questions. But sometimes on 
getaway days, things tend to move quicker for some reason. So 
thank you very much for your insight and sharing your expert 
opinions with us today. And we are adjourned.
    [Whereupon, at 11:13 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
